U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 18, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Oracle America, Inc. v. United States of America, et al,
S.Ct. No. 20-1057

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 29,
2021, and placed on the docket on February 3, 2021. The government’s response is due on
March 5, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1057
ORACLE AMERICA, INC.
USA, ET AL.

R. REEVES ANDERSON
ARNOLD & PORTER KAYE SCHOLER LLP
1144 FIFTEENTH STREET
SUITE 3100
DENVER, CO 80202
303-863-1000
REEVES.ANDERSON@PORTER.COM
FREDERICK W. CLAYBROOK, JR
CLAYBROOKE LLC
700 SIXTH ST., NW
SUITE 430
WASHINGTON, DC 20001
202-250-3833
RICK@CLAYBROOKLAW.COM
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM

